No. 20-565
IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.
PROOF OF SERVICE
I, George Matthews and I, Nina Matthews, do swear or declare that on this
date, February 1, 2020, as required by the U.S. Supreme Court Rule 29, I have
served the enclosed OBJECTION TO RESPONDENTS' MOTION FOR DAMAGES
on each party proceeding or that party's counsel, and on every other person required
to be serviced, by depositing an envelope containing the above document in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
David Merbaum, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
Andrew Becker, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
I declare under penalty of perjury that the foregoing is true and correct.
Dated This 1st day of February 2021.

14

